OFFICE OF INSPECTOR GENERAL
 for the Millennium Challenge Corporation

AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
FINANCIAL STATEMENTS, INTERNAL
CONTROLS, AND COMPLIANCE FOR
THE PERIOD ENDING
SEPTEMBER 30, 2008 AND 2007




AUDIT REPORT NO. M-000-09-001-C
November 17, 2008




WASHINGTON, DC
               Office of Inspector General
                 for the
               Millennium Challenge Corporation


               November 17, 2008


               Ambassador John J. Danilovich
               Chief Executive Officer
               Millennium Challenge Corporation
               875 15th Street, N.W.
               Washington, DC 20005-2203


               Subject:           Audit of the Millennium Challenge Corporation’s Financial Statements,
                                  Internal Controls, and Compliance for the Period Ending September 30,
                                  2008 and 2007
                                  Report No. M-000-09-001-C


               Dear Mr. Ambassador,


               Enclosed is the final report on the subject audit. The Office of Inspector General (OIG)
               contracted with the independent certified public accounting firm of Cotton & Company
               LLP to audit the financial statements of the Millennium Challenge Corporation (MCC) for
               the period ending September 30, 2008. The contract required that the audit be
               performed in accordance with United States Generally Accepted Government Auditing
               Standards, Office of Management and Budget (OMB) Bulletin 07-04, Audit
               Requirements for Federal Financial Statements, and the GAO/PCIE Financial Audit
               Manual.

               In its audit of the MCC’s financial statements for the period ending September 30, 2008
               the auditors found:

                   •    that the financial statements were fairly presented in conformity with U.S.
                        Generally Accepted Accounting Principles.

                   •    four significant deficiencies in the internal controls over financial reporting and its
                        operation, one of which is considered a material weakness.

                   •    no instances of material noncompliance with laws and regulations.

               Significant deficiencies increase the risk of improper recording, unauthorized
               transactions, omissions, potential funds control violations and noncompliance with laws,
               regulations, contracts and grant agreements. Cotton & Company LLP reported the
               following internal control significant deficiencies:

U.S. Agency for International Development
1300 Pennsylvania Avenue
Washington, D.C. 20523
www.usaid.gov
   1. Absence of quality controls over financial reporting (material weakness)

   2. Authorization for personnel actions inconsistent with stated policies and
      procedures.

   3. Transactions not recorded in the period they occurred, and

   4. Lack of adequate review for accuracy and duplication prior to processing and
      recording transactions in General Ledger.


In carrying out its oversight responsibilities, the OIG reviewed Cotton & Company,
LLP’s report and related audit documentation. This review, as differentiated from an
audit in accordance with U.S. Generally Accepted Government Auditing Standards,
was not intended to enable the OIG to express, and we do not express, opinions on
MCC’s financial statements, or internal control; or on MCC’s compliance with
applicable laws and regulations. Cotton & Company, LLP is responsible for the
attached auditor’s report, dated November 14, 2008, and the conclusions expressed in
the report. However, our review disclosed no instances that Cotton & Company, LLP
did not comply, in all material respects, with applicable standards.

To address the internal control deficiencies reported by Cotton & Company, LLP, we
are making the following recommendations to MCC’s management:

       Recommendation No. 1: We recommend that the Millennium Challenge
       Corporation management:

             1.1.  Perform detailed quality control reviews to                    ensure
       compliance with accounting standards and reporting guidance.

              1.2.  Review and revise written policies and procedures
       regarding the preparation of the financial statements and related footnote
       disclosures to ensure that all financial statement line items are reported
       accurately and properly supported, and that any adjustments are
       reviewed and approved before recording in the GL by NBC. Document the
       above processes to ensure that an audit trail is available for all line items
       and amounts reported.

             1.3.  Effectively coordinate with its service providers (USAID and
       NBC) to ensure timely and accurate receipt of final trial balance
       information sufficient to prepare complete financial statements in
       accordance with OMB Circular A-136.


       Recommendation No. 2: We recommend that the Millennium Challenge
       Corporation’s management review and revise its process for requesting,
       authorizing, and certifying its personnel actions to ensure all actions are
       properly authorized, documented, and retained prior to the action being
       processed into the personnel database.




                                           2
       Recommendation No. 3: We recommend that the Millennium Challenge
       Corporation management develop and adhere to all policies and
       procedures related to quarterly and yearend reporting to ensure that all
       appropriate transactions are reviewed and a determination is made as to
       the amounts to accrue for the current period; and the accrual amount is
       properly prepared, clearly documented, and supported and that it is
       reviewed by both the service provider, NBC, and MCC for completeness
       and accuracy prior to and subsequently after posting to the GL.


       Recommendation No. 4: We recommend that the Millennium Challenge
       Corporation management:

              4.1. Ensure that procedures for reviewing accruals and
       adjustments recorded by NBC are effectively performed to ensure each is
       valid and has been properly recorded.

              4.2.  Require documentation to support the entry of a JV to avoid
       duplication of the transactions. In addition, use of a consistent naming
       convention when entering JVs should be required to avoid duplication.

             4.3.   Ensure that PP&E reconciliations are effectively performed
       each quarter and that amortization schedules are accurate and complete.


In finalizing the report, we received and considered MCC’s response to the draft audit
report and the recommendations included therein. In its comments, MCC concurred
with all of the recommendations. We acknowledge that management decisions have
occurred for the audit recommendations. Please inform us when final action has been
taken.

The OIG appreciates the cooperation and courtesies extended to our staff and to the
staff of Cotton & Company, LLP during the audit. Please contact me or
Richard J. Taylor, Director, Financial Audits Division, at (202) 216-6963, if you have
any questions concerning this report.


Sincerely,


Alvin A. Brown /s/
Assistant Inspector General
Millennium Challenge Corporation




                                            3
                               TABLE OF CONTENTS


                                                         Page

Independent Auditor’s Report                                     1

   Opinion on the Financial Statements                           1

   Internal Control over Financial Reporting                     3

   Compliance with Laws and Regulations                         14

   Status of Prior Year Findings – Appendix A                   15

   Management Comments and Our Evaluation - Appendix B          17

   Management Comments - Appendix C                             19

Financial Section                                               24

   Balance Sheet                                                25

   Statement of Budgetary Resources                             26

   Statement of Net Cost                                        27

   Statement of Changes in Net Position                         28

   Notes of Financial Statements                                29
Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation


                               INDEPENDENT AUDITOR’S REPORT


We have audited the Balance Sheet of the Millennium Challenge Corporation (MCC) as of
September 30, 2008, and the related Statements of Net Cost, Changes in Net Position, and
Budgetary Resources for the year then ended. These financial statements are the responsibility
of MCC management. Our responsibility is to express an opinion on the financial statements
based on our audit. The financial statements of MCC as of September 30, 2007, were audited
by other auditors whose report dated October 23, 2007, expressed an unqualified opinion on
those statements.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal Financial Statements.
These standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting amounts and disclosures in the financial
statements. An audit also includes assessing accounting principles used and significant
estimates made by management, as well as evaluating overall financial statement presentation.
We believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of MCC as of September 30, 2008, and its net costs, changes in net
position, and budgetary resources for the year then ended in conformity with accounting
principles generally accepted in the United States of America.

Management’s Discussion and Analysis (MD&A) and other accompanying information are not
required as part of MCC’s basic financial statements. For MD&A, which is required by OMB
Circular A-136, Financial Reporting Requirements, and the Federal Accounting Standards
Advisory Board’s Statement of Federal Financial Accounting Standards No. 15, Management’s
Discussion and Analysis, we made certain inquiries of management and compared information
for consistency with MCC’s audited financial statements and against other knowledge we
obtained during our audit. For other accompanying information, we compared information with
the financial statements. On the basis of this limited work, we found no material inconsistencies
with the financial statements, U.S. generally accepted accounting principles, or OMB guidance.
We did not audit the MD&A or other accompanying information and therefore express no
opinion on them.

In accordance with Government Auditing Standards, we have also issued separate reports dated
November 4, 2008, on our consideration of MCC’s internal control over financial reporting and
on our tests of its compliance with certain provisions of laws and regulations. The purpose of
these reports is to describe the scope of our testing of internal control over financial reporting
and compliance and results of that testing, and not to provide an opinion on internal control
over financial reporting or on compliance. These reports are an integral part of an audit
performed in accordance with Government Auditing Standards and should be considered in
assessing results of our audit.


COTTON & COMPANY LLP

Colette Y. Wilson, CPA
Partner /s/


November 14, 2008
Alexandria, Virginia




                                                 2
Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation


                 INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL

We have audited the Balance Sheet of the Millennium Challenge Corporation (MCC) as of
September 30, 2008, and the related Statements of Net Cost, Changes in Net Position, and
Budgetary Resources for the year then ended. We have issued our report thereon dated
November 4, 2008. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal
Financial Statements.

In planning and performing our audit, we considered MCC’s internal control over financial
reporting as a basis for designing audit procedures for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the MCC’s internal control over financial reporting. Accordingly, we do not express an opinion
on the effectiveness of MCC’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements in a timely manner. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the entity’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a
misstatement of the entity’s financial statements, that is more than inconsequential, will not be
prevented or detected by the entity’s internal control.

We noted four matters involving internal control and its operation that we consider to be
significant deficiencies. These matters are listed below and are detailed in the report.

        •        Quality Control over Financial Reporting
        •        Authorization for Personnel Actions
        •        Proper Reporting Period
        •        Postings to the General Ledger




                                                  3
A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described above and would not necessarily identify all deficiencies in internal control that
might be significant deficiencies or material weaknesses. However, we consider the significant
deficiency related to Quality Control over Financial Reporting to be a material weakness as
defined above.

QUALITY CONTROL OVER FINANCIAL REPORTING

MCC’s quality control over quarterly and yearend financial reporting is not sufficient to enable
the agency to detect errors and misstatements and to make corrections in a timely manner.
During our interim test work and review of quarterly statements and trial balances, we
identified several control deficiencies in financial reporting that contributed to a significant
deficiency. We brought these deficiencies to the attention of management.

At the conclusion of yearend test work and after having received final statements and notes, we
noted that deficiencies previously brought to management’s attention remained uncorrected. It
is the combination and continuous nature of identified significant deficiencies that raised this
finding to the level of a material weakness. Specifically we found that:

        •       Despite frequent communications and early coordination with the United States
                Agency for International Development (USAID), MCC was unable to ensure
                timely submission of complete and accurate trial balance information and
                adjustments for reporting Threshold Program balances in its final financial
                statements, and lacked adequate cooperation from USAID. We noted the
                following:

                •   MCC prepared final FY 2007 statements with preliminary trial balance
                    information from USAID. USAID’s FY 2007 Federal Agencies’
                    Centralized Trial Balance System II (FACTS II) transmission was not
                    completed in a timely manner sufficient for MCC reporting. Subsequent
                    adjustments for FACTS II reporting were included in FY 2008 beginning
                    balances, thus creating differences in beginning and ending balances.

                •   MCC, in conjunction with its auditors, discussed the timing of final
                    adjustments necessary for accurate and complete FY 2008 yearend
                    reporting with USAID. Final trial balances were due by October 20, and
                    USAID submitted the final trial balance when due. On November 6,
                    however, USAID informed MCC that an additional budgetary adjustment
                    of $5.2 million was being posted during the FACTS II revision period.
                    MCC had submitted final statements for audit on November 5.

        •       MCC did not prepare comparable FYs 2008 and 2007 quarterly statements and
                FYs 2007 and 2006 audited statements. These statements contained prior-year
                ending balances that did not tie to beginning balances for the current year. We
                noted the following discrepancies.

                •   FY 2006 ending balances did not agree to FY 2007 beginning balances for
                    the following line items:
                    −   Unobligated Balance differed by $25,114,174.

                                                 4
        −   Obligated Balance differed by $135,345,240.
        −   Cumulative Results of Operations (CRO) differed by $834.

    •   FY 2007 ending balances did not tie to beginning FY 2008 balances for the
        following line items:

        −   Unobligated Balance differed by $4,324 in the first- and second-
            quarter statements and by $3,437,077 in the third-quarter statements
            due to formula errors.

        −   Obligated Balances (Unpaid) differed by $1,213,646 in the first- and
            second-quarter statements and by $4,646,399 in the third-quarter
            statements due to formula errors.

        −   Unexpended Appropriations differed by $3,621,292.

    •   In addition, the following ending FY 2007 account balances did not tie to
        beginning FY 2008 balances.

        −   FBWT differed by 3,969,761.
        −   Advances differed by $72,105.
        −   Accounts Payable 420,574.

    MCC restated FY 2006 ending balances, and audit adjustments were proposed
    to correct FY 2008 balances in the current year.

•   MCC does not perform detailed quality control reviews over quarterly and
    yearend MCC trial balances and financial statements submitted for review and
    audit. We noted the following:

    •   The Excel file prepared by MCC’s service provider, the National Business
        Center (NBC), and used to prepare FY 2008 third-quarter financial
        statements, contained errors in formulas and cell references. According to
        MCC personnel, these errors were made when combining the MCC and
        USAID trial balances. These errors were not detected by NBC personnel
        and were not detected or corrected by MCC personnel prior to submission
        to the auditors. As a result of these errors, third-quarter statements
        contained incorrect and missing line item balances, and the trial balance
        showing the beginning balances did not net to zero. Specifically:

        −   The Appropriations Used line items on the Statement of Changes in
            Net Position (SCNP) for CRO and Unexpended appropriations did not
            agree.

        −   Rescissions of $12,611,700 at third quarter were recorded in the
            general ledger (GL); however it was not reported on the SCNP as a
            part of Unexpended Appropriations.

    •   MCC does not conduct a thorough review or analysis of USAID-prepared
        trial balances for MCC’s Threshold Program before including these in the
        financial statements.
    •   The trial balance for the financial statement package submitted for audit on
        November 10 did not balance to zero for all program funds. The balance of

                                    5
                    all GL accounts for Due Diligence funds totaled $156,399. The balance of
                    GL accounts related to Program funds totaled $(126,214). Even with these
                    differences, which net to $30,185, the total of all GL accounts for all funds
                    was recorded as zero. Proposed audit adjustments were not fully posted.
                    MCC did not post audit adjustments related to GL account 4610,
                    Allotments – Realized Resources, and thus the trial balance did not balance.

        •       While the statements are prepared electronically using Excel, the preparation
                lacks edit checks to ensure proper relationships exist among line items. MCC
                and NBC do not perform sufficient reconciliations, analyses, and reviews to
                ensure that appropriate and/or reasonable relationships exist within GL
                accounts and financial statement line items, and that all footnote disclosures are
                complete and accurate per the financial statement line items. For example:

                •   Reporting of UDOs in MCC’s footnotes only included amounts from GL
                    account 4801, UDO, Unpaid, and thus was incomplete. Balances in GL
                    accounts 4802, UDO, Paid, 4871, Downward Adjustments, and 4881,
                    Upward Adjustments, were omitted, thus causing the footnote amount to be
                    understated by more than $42 million.

                •   Testing related to the proper relationship existing between budgetary
                    accounts payable and proprietary accounts payable at third quarter showed
                    a difference of $5,117,519. Testing related to the proper relationship
                    existing between budgetary expended authority and proprietary expenses at
                    third quarter showed a difference of $149,836.

                •   The Statement of Financing (SOF) footnote did not properly reconcile
                    MCC’s Net Cost of Operations to its budgetary resources, because Gross
                    Obligations did not agree with the amount reported on the Statement of
                    Budgetary Resources.

OMB Circular A-136, Form and Content of Performance and Accountability Report (PAR),
states:

        Reporting entities should ensure that information in the financial statements is
        presented in accordance with GAAP for Federal entities and the requirements of this
        Circular….

        Preparation of the annual financial statement is the responsibility of agency
        management….

        With an allocation transfer….All costs are then consolidated in the parent's financial
        statements in order to provide a complete cost of the parent’s program. Effective
        FY2007, the parent must report all budgetary and proprietary activity in its financial
        statements, whether material to the child, or not….Receiving agencies with transfer
        appropriation accounts must submit a full USSGL trial balance with attributes to the
        parent no later than 12 calendar days following the end of the reporting period or a date
        required by the parent to meet its reporting and auditing deadlines, whichever comes
        first….

By not reviewing components comprising the financial statement line items, MCC may present
statements that are not comparative, accurate, or in compliance with applicable requirements. In


                                                 6
addition, by not performing such reviews, MCC is not taking full ownership and responsibility
of its financial statements.

Recommendation
We recommend that MCC management:

        •       Perform detailed quality control reviews to ensure compliance with accounting
                standards and reporting guidance.

        •       Review and revise written policies and procedures regarding the preparation of
                the financial statements and related footnote disclosures to ensure that all
                financial statement line items are reported accurately and properly supported,
                and that any adjustments are reviewed and approved before recording in the
                GL by NBC. Document the above processes to ensure that an audit trail is
                available for all line items and amounts reported.

        •       Effectively coordinate with its service providers (USAID and NBC) to ensure
                timely and accurate receipt of final trial balance information sufficient to
                prepare complete financial statements in accordance with OMB Circular A-
                136.

Management Response
MCC concurs with the recommendations. MCC has published, in its FMPP Manual on
Financial Reporting, Financial Audits, and Performance and Accountability Reports, FMPP
420, procedures regarding the preparation of financial statements and footnote disclosures to
ensure that financial statement items are reported accurately and are properly supported. MCC
will revise/expand its written procedures to include procedures to perform detailed quality
control reviews to include reviewing adjustments recorded by NBC to ensure each is valid and
has been properly recorded. Further, MCC will develop and implement procedures and
documentation that provides an “audit trail” supporting management review and approval.
Estimated completion date: No later than March 31, 2008.

MCC has made painstaking efforts to mitigate the reporting difficulties with USAID in its
capacity as a service provider. During the last fiscal year MCC has met with USAID on four
different occasions to discuss, among other things, the timing of delivery of its deliverables.
Our meetings took place between September 2007 and October 23, 2008. Our most recent
meeting, held in conjunction with the OIG, demonstrated that while USAID makes an effort to
meet the requirements of OMB Circular A-136 and our Memorandum of Understanding, their
system of controls prevents them from ensuring we receive final deliverables timely. MCC will
continue its efforts to work with USAID to eliminate this major source of financial statement
errors and misstatements.

MCC believes it has taken full ownership and responsibility for its financial statements. MCC
converted its statements to comply with OMB Circular A-136 in advance of the OMB mandated
date of September 30, 2007. In conjunction with this change MCC assumed responsibility for
the preparation of all of its footnote disclosures and associated exhibits. As stated above, MCC
will be implementing measures to improve quality control in accordance with the auditors’
recommendations.




                                                7
AUTHORIZATION FOR PERSONNEL ACTIONS

MCC’s process of documenting requests and authorizations for personnel actions (SF-52s) is
inconsistent with stated policies and procedures. In lieu of authorizing signatures on the SF-52,
MCC relies on emails for requests and approvals. MCC also relies on systematic notifications
from its performance management and staffing system, Avue, for requests and approvals
related to promotions or internal transfers of its employees.
 
During our testing of a sample of 45 employees, we noted:

        •       Twelve instances where SF-52s were not signed by the requesting official
                and/or the certifying official, nor was email documentation present in the
                Official Personnel File (OPF) or subsequently provided;

        •       Four instances where the OPF did not have either the SF-52 or email
                documentation authorizing the personnel action; and

        •       One instance where an employee was not systematically selected for hire in the
                Avue system at the time the SF-52 was created and processed.

During our testing of a sample of 10 newly hired employees, we noted:

        •       Two instances where SF-52s were not signed by the requesting, authorizing,
                and/or certifying officials, nor were email documentation or Avue screenprints
                documented in the OPF or subsequently provided; and

        •       Three instances where SF-52s were not signed by the certifying official nor
                was email documentation present in the OPF or subsequently provided.

Office of Personnel Management's (OPM), The Guide to Processing Personnel Actions,
Chapter 4, Requesting and Documenting Personnel Actions, Section 4c, Approval of Personnel
Actions, states:

        Personnel actions must be approved by the appointing officer on or before their
        effective dates. An appointment officer is an individual in whom the power of
        appointment is vested by law or to whom it has been legally delegated. Only an
        appointment officer may sign and date the certification in Part C-2 of the
        Standard Form 52 ... the appointing officer is responsible for ensuring that each
        personnel action meets all legal and regulatory requirements.

For personnel action requests, we noted that the requesting officials, authorizing officials, and
approving officials did not sign in their designated area to document as validation and approval
of for the action. In cases where SF-52s are not signed or are not drafted, MCC’s process is to
rely on email authorizations from appropriate officials to serve as supporting documentation for
actions to be processed. Per our interview conducted with Human Resources (HR) personnel,
email authorizations are placed in the employees’ OPF as supporting documentation for
processed personnel actions. However, as noted above, email authorizations were not located in
all OPFs nor were they maintained in a centralized location for subsequent access and retrieval.




                                                 8
By not properly completing and processing personnel action requests with appropriately
documented authorizations, there is increased risk that personnel actions could be falsely
created and processed, or that personnel actions could be processed with incorrect legal and
regulatory actions.

Recommendation
We recommend that MCC review and revise its process for requesting, authorizing, and
certifying its personnel actions to ensure all actions are properly authorized, documented, and
retained prior to the action being processed into the personnel database.

Management Response
MCC concurs with this recommendation. The Human Resources Division (HRD) has
recognized the deficiency in documentation/SF-52s in the OPF’s. Since MCC’s conversion to
the competitive hiring process and as part of our Delegating Examining Authority, HRD’s
staffing specialists have established an electronic work flow/approval authorization process
within Avue to include all personnel actions. All staffing actions will be electronically signed-
off on and apparent on all SF-52s within the Avue system. Once an action is complete and
signed-off on by the Vice President, Manager, Supervisor, HRD, and Finance and Budget
Division, the hard copy (coded) SF-52 is now printed and filed in each employees’ OPF. We
have taken the formal approval process one step further to include the MCC Vice President,
Administration and Finance, and the MCC Chief of Staff, to our current electronic process.
This will be updated in the current Avue system by December 31, 2008.

    •   The Recruit to Fill and Promotions/Reassignments/Retention Request Process outlines
        the Avue/Personnel Action Request (PAR) process that will record electronic approvals
        and lead to a hard coded SF-52 for filing in the employees’ OPFs.

    •   Through the Avue system, HRD will be able to generate reports for the Delegated
        Examining Unit Audit requests. HRD has also established and will continue to update
        our internal standard operating procedures (SOPs) for staffing and SF-52s processing.

PROPER REPORTING PERIOD

During our testing of expenses, we noted transactions that were reported in Fiscal Year (FY)
2008, for several expenses that were actually incurred in FY 2007. Out of a sample of 61
expense transactions, we noted the following:

        •       One vendor payment to USAID did not have an accrual recorded in FY 2007
                before payment was made in November 2007 (FY 2008). This resulted in an
                understatement of FY 2007 expenses and an overstatement of FY 2008
                expenses of $1,176,360.

        •       Purchase card transactions for August 2007 were not posted to the general
                ledger until March 2008, and an accrual was not posted to the General Ledger
                (GL) in FY 2007. This resulted in an understatement of FY 2007 expenses and
                an overstatement of FY 2008 expenses of $36,554.

        •       Miscellaneous expenses related to refunds for expenses incurred in FY 2007,
                were posted in October 2007 (FY 2008). An accrual was not posted in FY 2007
                to match the expense resulting in an overstatement of FY 2007 and an
                understatement of FY 2008 expenses in the amount of $18,214.



                                                 9
        •       An accrual for a compact country utilizing the Common Payment System
                (CPS) was not posted in FY 2007; instead expenses that were incurred in FY
                2007 were reported in FY 2008. We estimate that $383,332 of expenses
                recorded for Mali during the first two weeks of October 2007 (FY 2008)
                actually related to FY 2007 expenses.

In addition, during our testing of subsequent disbursements, we found 7 out of 24 sampled
transactions that were paid in FY 2009, related to FY 2008 and did not have accruals posted.
Expenses were therefore understated by $1,597,587.

Statements of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for
Liabilities of the Federal Government, (p. 22 and 23) requires that “a liability be recognized
when one party receives goods or services in return for a promise to provide money or other
resources in the future… The expense is recognized in the period that the exchange occurs.”

Office of Management and Budget (OMB) Circular A-136, Form and Content of the
Performance and Accountability Report (PAR), Balance Sheet, Section III.4.3.4 Liabilities,
states that “liabilities shall be recognized when they are incurred regardless of whether they are
covered by available budgetary resources.”

Although MCC does have a process in place for recording accruals on a quarterly and yearend
basis, it did not adequately perform this review at yearend for interagency agreements and
vendor contracts. In addition, MCC did not have a process by which it reviewed amounts due
from vendors for services already rendered in order to accrue for the refund and reduce the
appropriate period’s expenses.

In FY 2007, MCC did not have a system in place to compute amounts owed, but not paid, for
services rendered or goods accepted by MCC for countries utilizing CPS, as this was the first
year of implementation and only one country (Mali) was using it.

FY 2008 expenses were overstated by $1,578,032 due to lack of accruals in FY 2007 and
understated by $1,597,586 due to lack of FY 2008 accruals.

Recommendation
We recommend MCC management develop and adhere to policies and procedures related to
quarterly and yearend reporting to ensure:

        •       All appropriate transactions are reviewed and a determination is made as to the
                amount to accrue for the current period; and

        •       The accrual amount is properly prepared, clearly documented, and supported
                and that it is reviewed by both the service provider, NBC, and MCC for
                completeness and accuracy prior to and subsequently after posting to the GL.




                                                 10
Management Response
MCC concurs with the recommendation. In both FY 2007 and 2008, MCC developed and
utilized comprehensive Yearend Closing and Opening Policies and Procedures that, among
other items, detailed MCC accrual procedures. These policies and procedures are published
and disseminated each year. Incorporating these recommendations results in an expanded
scope that includes updated procedures that ensure all appropriate transactions are reviewed,
and a determination is made as to the amount to accrue for the current period. Additionally,

accruals will be reviewed and approved by MCC prior to posting and will be reviewed for
accuracy and completeness after posting as well.

POSTING TO THE GENERAL LEDGER

Internal controls are not adequate to ensure that invoices, purchase orders, and journal vouchers
(JV) are correct, accurate, and properly entered into MCC’s GL. During our testing we noted
the following:

        •       Two travel related accruals were posted twice in the GL. NBC Accounting
                Technicians posted two accruals (MCC-2008-045 and MCC-2008-046 in the
                amounts of $302,384 and $72,187, respectively) on April 7, 2008; these two
                accruals were posted again on April 12th. The first two entries were
                subsequently reversed in the next period. In addition, a JV related to accruing
                expenses for MCC’s Threshold program was posted twice in the amount of
                $739,817. NBC was unable to provide documentation or a reason as to why
                the JV accruals were posted twice. MCC surmised that NBC did not realize or
                verify that the entries had already been posted.

        •       Airfare for one trip was erroneously posted twice at different amounts.
                Documentation provided for airfare posted on the centrally billed account
                showed that an initial amount of $13,640 was recorded but not reversed when
                the trip was changed to a subsequent day. New airfare in the amount of
                $14,025 was charged when the trip was rebooked. Based on inquiries with the
                Travel Coordinator regarding the airfare, it was determined that the duplication
                was not known until brought to management’s attention by the auditors. The
                erroneous amount was credited on a subsequent credit card statement.

        •       Property, Plant and Equipment (PP&E) transactions were incorrectly recorded
                in the GL and were not corrected in a timely manner, as follows:

                •   Accountable equipment purchases in the amount of $51,862 were recorded
                    in BOCs for capitalized assets.

                •   A $7,875 invoice for capitalized leasehold improvements (LHI) was
                    incorrectly recorded as an expense.

                •   Accumulated amortization on LHI was understated by $251,992 in the
                    third-quarter financial statements. The transactions to record amortization
                    expense and accumulated amortization were posted as accruals instead of
                    expenses; thus the amortization expense was systematically reversed,
                    reducing accumulated amortization at June 30, 2008.




                                                11
                •   A $1,033,429 invoice was recorded in the capitalized LHI account but was
                    not recorded on the amortization schedule. This resulted in amortization
                    expense and accumulated amortization not being accounted for during the
                    first three quarters of FY 2008.


Government Accountability Office (GAO) Internal Control Standards for the Federal
Government, GAO/AIMD-00-21.3.1 (11/90) states:

        Control activities occur at all levels and functions of the entity. They include a wide
        range of diverse activities such as approvals, authorizations, verifications,
        reconciliations, performance reviews, maintenance of security, and the creation and
        maintenance of related records which provide evidence of execution of these activities
        as well as appropriate documentation. Control activities may be applied in a
        computerized information system environment or through manual processes.

      Internal control and all transactions and other significant events need to be clearly
      documented, and the documentation should be readily available for examination…All
      documentation and records should be properly managed and maintained.

While some of the discrepancies in property were discovered and known by MCC management,
corrections were not made timely. Transactions that are erroneously posted and not corrected in
a timely manner increase the risk of financial misstatements. As a result of erroneous postings,
expenses and equipment balances were overstated in the second and third quarter financial
statements. All transactions were corrected by management in the 4th quarter.

Recommendation
We recommend MCC management:

        •       Ensure that procedures for reviewing accruals and adjustments recorded by
                NBC are effectively performed to ensure each is valid and has been properly
                recorded.

        •       Require documentation to support the entry of a JV to avoid duplication of the
                transaction. In addition, use of a consistent naming convention when entering
                JVs should be required to avoid duplication.

        •       Ensure that PP&E reconciliations are effectively performed each quarter and
                that amortization schedules are accurate and complete.

Management Response
MCC concurs with the recommendation. MCC has a section published in its Financial
Management Policies and Procedures (FMPP) Manual on Expense Accruals, FMPP 220.
Closer scrutiny of the existing policy and procedures indicated a need to “tighten” the controls
surrounding these processes. MCC will adopt procedures to review accruals and adjustments
recorded by NBC to ensure each is valid and has been properly recorded. Additionally, MCC
and NBC will jointly develop procedures to eliminate the possibility of recording duplicate
transactions. Lastly, MCC’s FMPP 350, Policies and Procedures on Property, Plant and
Equipment (PP&E), clearly defines MCC’s policies on PP&E but is silent on specific control
procedures. MCC will develop and implement detailed procedures by no later than March 31,
2009.



                                               12
We noted certain matters involving internal control and its operation that we will report to
MCC management in a separate letter.

This report is intended solely for the information and use of USAID, MCC management, others
within MCC, OMB, and Congress. It is not intended to be and should not be used by anyone
other than these specified parties.


COTTON & COMPANY LLP

Colette Y. Wilson, CPA
Partner /s/


November 14, 2008
Alexandria, Virginia




                                                13
                                       Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation


                          INDEPENDENT AUDITOR’S REPORT ON
                        COMPLIANCE WITH LAWS AND REGULATIONS

We have audited the Balance Sheet of the Millennium Challenge Corporation (MCC) as of
September 30, 2008, and the related Statements of Net Cost, Changes in Net Position, and
Budgetary Resources for the year then ended. We have issued our report thereon dated
November 4, 2008. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin 07-04, Audit Requirements for Federal
Financial Statements.

MCC management is responsible for complying with laws and regulations applicable to the
agency. As part of obtaining reasonable assurance about whether MCC’s financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on
the determination of financial statement amounts, and certain other laws and regulations
specified in OMB Bulletin 07-04. Providing an opinion on compliance with those provisions
was not, however, an objective of our audit, and accordingly, we do not express such an
opinion.

The results of our tests of compliance disclosed no instances of noncompliance that we are
required to report under Government Auditing Standards and OMB Bulletin 07-04.

This report is intended solely for the information and use of USAID, MCC management, others
within MCC and USAID, OMB, and Congress. It is not intended to be and should not be used
by anyone other than these specified parties.

COTTON & COMPANY LLP

Colette Y. Wilson, CPA
Partner /s/

November 14, 2008
Alexandria, Virginia




                                                14
                                                              Appendix A


Status of    Following is the disposition of prior year (2007) findings,
Prior Year   recommendations, and MCC Management’s action.
Findings
             Finding:

             MCC did not sufficiently execute its monitoring function related to
             advances.

             Recommendations:

             1.1 Implement a policy that reduces outstanding advances based on
                 the FIFO method.
             1.2 Implement the common payment system for all MCAs on a more
                 aggressive timeline.
             1.3 Make payments in accordance with the monthly schedule, and if a
                 payment is held, consider the need for it to be disbursed at all.
             1.4 Ensure that there is a more rigorous review of advance requests
                 including an assessment of outstanding advances

             Status:

             During FY 2008, MCC began analyzing advances and re-disbursements
             to ensure that outstanding advances are based on the FIFO method. In
             addition, MCC implemented the Common Payment System (CPS) for all
             countries and programs, with the exception of Vanuatu, allowing it to
             disburse payments directly to vendors for Millennium Challenge
             Account (MCA) compact countries.

             Result:

             We consider this FY 2007 condition to be resolved as of September 30,
             2008.

             Finding:

             MCC lacks written Policies and Procedures related to financial reporting
             accountability and document control.




                                          15
                                                                Appendix A


Recommendations:

          2.1 Formally document the MCC accountability for ensuring
              MCA compliance with the reporting provisions.
          2.2 Implement document retention policies that include
              standards for version control and a central repository for
              documents that are used by multiple MCC units.
          2.3. Continue with the planned implementation of the BIDS
               project and ensure that information is validated prior to
               inclusion in the new system


Status:

Prior to FY 2008, MCC did not have a master depository for maintaining
MCA compact documents and clearance (or approval) documentation to
support disbursement of advances to Compact countries. MCC could
not provide sufficient documentation to support all approvals made in
prior years for re-disbursements that occurred in the current period.
During FY 2008, however, MCC instituted the SharePoint database
where all clearances and approvals of quarterly reports are tracked and
retained in a central location with each country having a dedicated site.
We were able to verify this database and its effectiveness through
testing of other disbursements without exception.
The BIDS project has been postponed until FY 2009.

Result:

We consider this FY 2007 condition to be resolved as of September 30,
2008, with the exception of the BIDS project.




                               16
                                                                             Appendix B


                   We received and evaluated MCC’s management comments to the
Management         recommendations made in this report. Management comments have
Comments and Our   been included in its entirety in Appendix C.
Evaluation
                   Based on MCC’s comments, we acknowledge that management
                   decisions have been reached on all of the recommendations. MCC
                   should report to the OIG when final action has been taken on the
                   recommendations. The following is a brief summary of MCC’s
                   management comments on the four recommendations included in this
                   report and our evaluation of those comments.


                   Recommendation No. 1

                   MCC concurs with the recommendations. MCC has published, in its
                   FMPP Manual on Financial Reporting, Financial Audits, and
                   Performance and Accountability Reports, FMPP 420, procedures
                   regarding the preparation of financial statements and footnote
                   disclosures to ensure that financial statement items are reported
                   accurately and are properly supported. MCC will revise/expand its
                   written procedures to include procedures to perform detailed quality
                   control reviews to include reviewing adjustments recorded by NBC to
                   ensure each is valid and has been properly recorded. Further, MCC will
                   develop and implement procedures and documentation that provides an
                   “audit trail” supporting management review and approval. Estimated
                   completion date: No later than March 31, 2009.

                   Auditor Evaluation:

                   We conclude that management has adequately addressed this issue,
                   and acknowledge that a management decision has been taken.


                   Recommendation No. 2

                   MCC concurs with this recommendation. The Human Resources
                   Division (HRD) has recognized the deficiency in documentation/SF-52s
                   in the OPF’s. Since MCC’s conversion to the competitive hiring process
                   and as part of our Delegating Examining Authority, HRD’s staffing
                   specialists have established




                                              17
                                                             Appendix B


an electronic work flow/approval authorization process within Avue to
include all personnel actions. All staffing actions will be electronically
signed-off on and apparent on all SF-52s within the
Avue system. Once an action is complete and signed-off on by the
Vice President, Manager, Supervisor, HRD, and Finance and Budget
Division, the hard copy (coded) SF-52 is now printed and filed in each
employees’ OPF. We have taken the formal approval process one step
further to include the MCC Vice President, Administration and Finance,
and the MCC Chief of Staff, to our current electronic process. This will
be updated in the current Avue system by December 31, 2008.

Auditor Evaluation:

We conclude that management has adequately addressed this issue,
and acknowledge that a management decision has been taken.


Recommendation No. 3

MCC concurs with the recommendation. In both FY 2007 and 2008,
MCC developed and utilized comprehensive Yearend Closing and
Opening Policies and Procedures that, among other items, detailed
MCC accrual procedures. These policies and procedures are published
and disseminated each year. Incorporating these recommendations
results in an expanded scope that includes updated procedures that
ensure all appropriate transactions are reviewed, and a determination is
made as to the amount to accrue for the current period. Additionally,
accruals will be reviewed and approved by MCC prior to posting and will
be reviewed for accuracy and completeness after posting as well.

Auditor Evaluation:

We conclude that management has adequately addressed this issue,
and acknowledge that a management decision has been taken.


Recommendation No. 4

MCC concurs with the recommendation. MCC has a section published
in its Financial Management Policies and Procedures (FMPP) Manual
on Expense Accruals, FMPP 220. Closer scrutiny of the existing policy
and procedures indicated a need to “tighten” the controls surrounding
these processes. MCC will adopt procedures to review accruals and
adjustments recorded by NBC to ensure each is valid and have been
properly recorded. Additionally, MCC and NBC will jointly develop
procedures to eliminate the possibility of recording duplicate
transactions. Lastly, MCC’s FMPP 350, Policies and Procedures on
Property, Plant and Equipment (PP&E), clearly defines MCC’s policies


                             18
                           on PP&E but is silent on specific control procedures. MCC will develop
                                                                                           Appendix C
                           and implement detailed procedures by no later than March 31, 2009.

                           Auditor Evaluation:

                           We conclude that management has adequately addressed this issue,
                           and acknowledge that a management decision has been taken.




TO:                Alvin A. Brown
                   Assistant Inspector General

FROM:              Michael Casella /s/
                   Acting Vice President, Administration and Finance

DATE:              November 17, 2008

SUBJECT:           Management Response to Draft Independent Auditor’s
                   Report on MCC’s Financial Statements for Fiscal Years
                   Ended September 30, 2008 and 2007, Respectively

We have received the subject draft report and are pleased to note that the independent auditors,
Cotton & Company, LLP, are issuing an unqualified opinion on our principal financial statements,
namely the Statements of:

           Financial Position;
           Net Costs;
           Changes in Financial Position; and
           Budgetary Resources.

The Millennium Challenge Corporation’s (MCC) management recognizes the importance of
accountability, effective stewardship and public disclosures related to the resources entrusted to it.
Our goal is to achieve and maintain excellence in our financial management, financial reporting
and internal control systems. Accordingly, we will implement the recommendations as soon as
possible to strengthen our systems of internal control and lend further credibility to our financial
statements and overall financial operations.

We wish to recognize and thank you, your team, and Cotton & Company for working closely with
us during the audit process. Any questions may be addressed to Mr. Dennis Nolan, Deputy Chief
Financial Officer, or to me.

Following are our management decisions and responses to Cotton & Company’s audit
recommendations.




                                                         19
                                                                                       Appendix C


Material Weakness

Quality Control over Financial Reporting

MCC’s quality control over quarterly and yearend financial reporting is not sufficient to enable the
agency to detect errors and misstatements and to make corrections in a timely manner.

Recommendation No. 1
We recommend that MCC management:

1.1 Perform detailed quality control reviews to ensure compliance with accounting standards and
reporting guidance.

1.2 Review and revise written policies and procedures regarding the preparation of the financial
statements and related footnote disclosures to ensure that all financial statement line items are
reported accurately and properly supported, and that any adjustments are reviewed and approved
before recording in the GL by NBC. Document the above processes to ensure that an audit trail is
available for all line items and amounts reported.

1.3 Effectively coordinate with its service providers (USAID and NBC) to ensure timely and
accurate receipt of final trial balance information sufficient to prepare complete financial
statements in accordance with OMB Circular A-136.

Management Response
MCC concurs with the recommendations. MCC has published, in its FMPP Manual on Financial
Reporting, Financial Audits, and Performance and Accountability Reports, FMPP 420,
procedures regarding the preparation of financial statements and footnote disclosures to ensure
that financial statement items are reported accurately and are properly supported. MCC will
revise/expand its written procedures to include procedures to perform detailed quality control
reviews to include reviewing adjustments recorded by NBC to ensure each is valid and has been
properly recorded. Further, MCC will develop and implement procedures and documentation that
provides an “audit trail” supporting management review and approval. Estimated completion
date: No later than March 31, 2008.

MCC has made painstaking efforts to mitigate the reporting difficulties with USAID in its capacity
as a service provider. During the last fiscal year MCC has met with USAID on four different
occasions to discuss, among other things, the timing of delivery of its deliverables. Our meetings
took place between September 2007 and October 23, 2008. Our most recent meeting, held in
conjunction with the OIG, demonstrated that while USAID makes an effort to meet the
requirements of OMB Circular A-136 and our Memorandum of Understanding, their system of
controls prevents them from ensuring we receive final deliverables timely. MCC will continue its
efforts to work with USAID to eliminate this major source of financial statement errors and
misstatements.

                                                       20
                                                                                       Appendix C


MCC believes it has taken full ownership and responsibility for its financial statements. MCC
converted its statements to comply with OMB Circular A-136 in advance of the OMB mandated
date of September 30, 2007. In conjunction with this change MCC assumed responsibility for the
preparation of all of its footnote disclosures and associated exhibits. As stated above, MCC will be
implementing measures to improve quality control in accordance with the auditors’
recommendations.

Significant Deficiency 1: Authorization for Personnel Actions
MCC’s process of documenting requests and authorizations for personnel actions (SF-52s) is
inconsistent with stated policies and procedures.

Recommendation No. 2
We recommend that MCC review and revise its process for requesting, authorizing, and certifying
its personnel actions to ensure all actions are properly authorized, documented, and retained prior
to the action being processed into the personnel database.

Management Response
MCC concurs with this recommendation. The Human Resources Division (HRD) has recognized
the deficiency in documentation/SF-52s in the OPF’s. Since MCC’s conversion to the competitive
hiring process and as part of our Delegating Examining Authority, HRD’s staffing specialists have
established an electronic work flow/approval authorization process within Avue to include all
personnel actions. All staffing actions will be electronically signed-off on and apparent on all SF-
52s within the Avue system. Once an action is complete and signed-off on by the Vice President,
Manager, Supervisor, HRD, and Finance and Budget Division, the hard copy (coded) SF-52 is
now printed and filed in each employees’ OPF. We have taken the formal approval process one
step further to include the MCC Vice President, Administration and Finance, and the MCC Chief
of Staff, to our current electronic process. This will be updated in the current Avue system by
December 31, 2008.

               •   The Recruit to Fill and Promotions/Reassignments/Retention Request Process
                   outlines the Avue/Personnel Action Request (PAR) process that will record
                   electronic approvals and lead to a hard coded SF-52 for filing in the employees’
                   OPFs.

               •   Through the Avue system, HRD will be able to generate reports for the
                   Delegated Examining Unit Audit requests. HRD has also established and will
                   continue to update our internal standard operating procedures (SOPs) for
                   staffing and SF-52s processing.

Significant Deficiency 2: Proper Reporting Period
During our testing of expenses, we noted transactions that were reported in Fiscal Year (FY) 2008,
for several expenses that were actually incurred in FY 2007.


                                                       21
                                                                                      Appendix C


Recommendation No. 3
We recommend MCC management develop and adhere to policies and procedures related to
quarterly and yearend reporting to ensure:

                  3.1 All appropriate transactions are reviewed and a determination is made as to
                      the amount to accrue for the current period; and
                  3.2 The accrual amount is properly prepared, clearly documented, and supported
                      and that it is reviewed by both the service provider, NBC, and MCC for
                      completeness and accuracy prior to and subsequently after posting to the
                      GL.

Management Response
MCC concurs with the recommendation. In both FY 2007 and 2008, MCC developed and utilized
comprehensive Yearend Closing and Opening Policies and Procedures that, among other items,
detailed MCC accrual procedures. These policies and procedures are published and disseminated
each year. Incorporating these recommendations results in an expanded scope that includes
updated procedures that ensure all appropriate transactions are reviewed, and a determination is
made as to the amount to accrue for the current period. Additionally, accruals will be reviewed
and approved by MCC prior to posting and will be reviewed for accuracy and completeness after
posting as well.

Significant Deficiency 3: Posting to the General Ledger
MCC’s internal controls are not adequate to ensure that invoices, purchase orders, and journal
vouchers (JV) are correct, accurate, and properly entered into MCC’s GL.

Recommendation No. 4
We recommend MCC management:

                  4.1 Ensure that procedures for reviewing accruals and adjustments recorded by
                      NBC are effectively performed to ensure each is valid and has been properly
                      recorded.

                  4.2 Require documentation to support the entry of a JV to avoid duplication of
                      the transaction. In addition, use of a consistent naming convention when
                      entering JVs should be required to avoid duplication.

                  4.3 Ensure that PP&E reconciliations are effectively performed each quarter and
                      that amortization schedules are accurate and complete.

Management Response
MCC concurs with the recommendation. MCC has a section published in its Financial
Management Policies and Procedures (FMPP) Manual on Expense Accruals, FMPP 220. Closer
scrutiny of the existing policy and procedures indicated a need to “tighten” the controls

                                                       22
                                                                                  Appendix C

surrounding these processes. MCC will adopt procedures to review accruals and adjustments
recorded by NBC to ensure each is valid and has been properly recorded. Additionally, MCC and
NBC will jointly develop procedures to eliminate the possibility of recording duplicate
transactions. Lastly, MCC’s FMPP 350, Policies and Procedures on Property, Plant and
Equipment (PP&E), clearly defines MCC’s policies on PP&E but is silent on specific control
procedures. MCC will develop and implement detailed procedures by no later than March 31,
2009.




                                                    23
FINANCIAL SECTION
  In accordance with the OMB Circular A-136, Financial Reporting Requirements, MCC is
  presenting its financial statements in the appropriate form and content for FY 2008. The tables
  below outline the following financial statements:
  `     Balance Sheets
  `     Statement of Budgetary Resources
  `     Statement of Net Cost
  `     Statement of Changes in Net Position
  `     Notes to Financial Statements




                                                 24
BALANCE SHEET
                                                                  FY 2008          FY 2007
                                                                (in dollars)     (in dollars)
 Assets
 Intra-Governmental
 Fund Balance with Treasury (Note 2)                            $6,546,857,481   $5,549,289,597
 Total Intra-Governmental                                        6,546,857,481    5,549,289,597
 Accounts Receivable (Note 3)                                           54,672           67,798
 General Property, Plant, and Equipment (Note 4)                     8,127,205        7,115,606
 Other/Advances (Note 1O, Note 5)                                  42,578,652       32,243,157
 Total Assets                                                   $6,597,618,010   $5,588,716,158


 Liabilities
 Intra-Governmental
 Other (Note 1R)                                                     $383,270        ($588,235)
 Total Intra-Governmental                                              383,270        (588,235)
 Accounts Payable (Note 1F)                                        35,341,439       39,176,698
 Other/Accrued Funded Liabilities (Note 1R)                          6,444,041        6,017,983
 Total Liabilities                                                $42,168,750      $44,606,446


 Net Position
 Unexpended Appropriations – Other Funds                        $6,548,610,190   $5,536,714,361
 Cumulative Results of Operations – Other Funds                      6,839,070        7,395,351
 Total Net Position                                             $6,555,449,260   $5,544,109,712


 Total Liabilities and Net Position                             $6,597,618,010   $5,588,716,158

The notes are an integral part of these financial statements.




                                                 25
STATEMENT OF BUDGETARY RESOURCES
                                                                  FY 2008          FY 2007
                                                                (in dollars)     (in dollars)
 Budgetary Resources
 Unobligated Balance – Beginning of Period                      $2,256,142,503   $2,671,372,416
 Recoveries of Prior Years Obligations                                 504,898      15,930,609
 Budget Authority:
 Appropriations                                                  1,557,000,000    1,752,300,000
 Nonexpenditure Transfers, Net, Anticipated and Actual            (10,810,404)      (9,415,980)
 Permanently Not Available (Note 8)                               (70,611,700)
 Total Budgetary Resources                                      $3,732,225,297   $4,430,187,045


 Status of Budgetary Resources
 Obligations Incurred
   Direct                                                       $2,769,921,274   $2,174,044,542
 Unobligated Balance Available                                    780,796,905     1,516,900,216
 Unobligated Balance Not Available                                181,507,118      739,242,287
 Total Status of Budgetary Resources                            $3,732,225,297   $4,430,187,045


 Change in Obligated Balance
 Obligated Balance, Net – as of October 1, 2008
 Unpaid Obligations, Brought Forward, October 1                 $3,287,907,145   $1,408,398,635
 Obligations Incurred                                           $2,769,921,274    2,174,044,542
 Gross Outlays                                                  ($473,979,346)    (278,605,423)
 Recoveries of Prior Year Unpaid Obligations, Actual                ($504,898)     (15,930,609)
 Obligated Balance, Net – End of Period
 Unpaid obligations                                             $5,583,344,175   $3,287,907,145
 Net Outlays
 Gross Outlays                                                   $473,979,346     $278,605,423

The notes are an integral part of these financial statements.




                                                 26
STATEMENT OF NET COSTS
                                                                2008 Total       2007 Total
                         Program
                                                                (in dollars)     (in dollars)
 Program Costs
 Compact
 Gross Costs (Note 7)                                            $226,498,265      $81,079,458
 Less: Earned Revenue
 Net Program Costs                                                226,498,265       81,079,458
 609 (g) Programs
 Gross Costs                                                         9,768,972      17,172,113
 Less: Earned Revenue
 Net Program Costs                                                   9,768,972      17,172,113
 Threshold Programs
 Gross Costs                                                      118,903,902       75,766,215
 Less: Earned Revenue
 Net Program Costs                                                118,903,902       75,766,215
 Due Diligence Programs
 Gross Costs                                                       17,338,771       32,789,662
 Less: Earned Revenue
 Net Program Costs                                                 17,338,771       32,789,662
 Audit
 Gross Costs                                                         2,304,181        2,865,820
 Less: Earned Revenue
 Net Program Costs                                                   2,304,181        2,865,820
 Administrative
 Gross Costs                                                       85,782,157       77,922,458
 Less: Earned Revenue
 Net Program Costs                                                 85,782,157       77,922,458
 Program Costs – Net of All Programs                             $460,596,248     $287,595,725
 Net Costs of Operations                                         $460,596,248     $287,595,725

The notes are an integral part of these financial statements.




                                                 27
STATEMENT OF CHANGES IN NET POSITION
                                                                  FY 2008            FY 2007
                                                                (in dollars)       (in dollars)
 Cumulative Results of Operations
 Beginning Balances                                                $7,395,351         $4,694,987
 Adjustments (Note 1I)                                             (1,671,357)                    0
 Beginning Balance, as Adjusted                                    $5,723,994         $4,694,987
 Budgetary Financing Sources
 Appropriations Used                                             $460,060,774       $288,359,297
 Other Financing Sources
 Donations and Forfeitures of Property                                         0        $123,750
 Imputed Financing                                                   1,650,550          1,813,042
 Total Financing Sources                                          461,711,324        290,296,089
 Net Cost of Operations                                          (460,596,248)      (287,595,725)
 Net Change                                                          1,115,076          2,700,364
 Cumulative Results of Operations                                  $6,839,070         $7,395,351


 Unexpended Appropriations
 Beginning Balance                                              $5,536,714,361     $4,082,189,638
 Adjustments (Note 8)                                              (3,621,292)
 Beginning Balance, as Adjusted                                 $5,533,093,069     $4,082,189,638
 Budgetary Financing Sources
 Appropriations Received                                        $1,557,000,000     $1,752,300,000
 Appropriations Transferred In/Out                                (10,810,404)        (9,415,980)
 Other adjustments (Note 8)                                       (70,611,700)                    0
 Appropriations Used                                             (460,060,774)      (288,359,297)
 Total Budgetary Financing Sources                               1,015,517,122      1,454,524,723
 Total Unexpended Appropriations                                $6,548,610,190     $5,536,714,361
 Net Position                                                   $6,555,449,260     $5,544,109,712

The notes are an integral part of these financial statements.




                                                 28
NOTES TO FINANCIAL STATEMENTS (AS OF SEPTEMBER 30, 2008)
     Note 1—Summary of Significant Accounting Policies

     A. Basis of Presentation
     The accompanying financial statements have been prepared to report the financial
     position, results of operations and budgetary resources for MCC, as required by OMB
     Circular A-136, Financial Reporting Requirements for form and content and in
     accordance with Section 613 of the Millennium Challenge Act of 2003 and the
     Government Corporation Control Act (31 U.S.C. §9106). These financial statements
     have been prepared from MCC’s books and records and are presented in accordance
     with the applicable requirements of OMB, the Secretary of the Treasury, and the
     Government Management and Reform Act of 1994.

     MCC’s accounting policies conform to and are consistent with generally accepted
     accounting principles for the Federal Government, as promulgated by OMB and
     prescribed by the Federal Accounting Standards Advisory Board (FASAB).

     MCC’s principle financial statements are:

             `    Balance Sheet
             `    Statement of Net Cost
             `    Statement of Budgetary Resources
             `    Statement of Changes in Net Position

     Financial statement footnotes are also included and are considered an integral part of
     the financial statements.

     B. Reporting Entity
     MCC was formed in January 2004 pursuant to the Millennium Challenge Act of 2003
     (Public Law 108-199). MCC’s mission is to reduce poverty by supporting sustainable,
     transformative economic growth in developing countries which create and maintain
     sound policy environments. The assistance is intended to provide economic growth
     and the alleviation of extreme poverty, strengthen good governance, encourage
     economic freedom, and promote investments in people.

     C. Budgets and Budgetary Accounting
     MCC’s programs and activities are funded through no-year appropriations. Such funds
     are available for obligation without fiscal year limitation and remain available until
     expended. MCC was provided total appropriations of $1.557 billion and $1.752 billion
     in FY 2008 and FY 2007, respectively. OMB apportions MCC administrative funds on
     an annual basis pursuant to statutory limitations in the appropriations bill. In addition,



                                             29
MCC receives from OMB a separate apportionment of funds for administrative (SAE)
and audit oversight, compact programs, due diligence programs, 609(g) programs and

threshold programs. Because of the no-year status of MCC appropriations, unobligated
administrative, audit, and due diligence funds (apportioned on annual bases) are not
returned to the Treasury; however, unobligated balances as of September 30 for these
three categories of funds are transferred to the compact fund category at the beginning
of the subsequent fiscal year.

D. Basis of Accounting
Financial transactions are recorded on accrual and budgetary bases in accordance with
pertinent federal accounting and financial reporting requirements. Under the accrual
method of accounting, financing sources are recognized when used and expenses are
recognized when incurred, without regard to receipt or payment of cash. Budgetary
accounting facilitates MCC’s compliance with legal constraints and controls over the
use of federal funds.
The accompanying Balance Sheet, Statement of Net Cost and Statement of Changes in
Net Position are prepared on the accrual basis. The Statement of Budgetary Resources
is prepared in accordance with budgetary accounting rules.

E. Fund Balance with Treasury
MCC does not maintain cash in commercial bank accounts. Rather, MCC’s funds are
maintained in Treasury accounts. The Department of the Treasury processes all cash
receipts and disbursements for MCC. The Fund Balances with Treasury represent no-
year funds, which are maintained in appropriated funds that are available to pay current
and future commitments.

F. Accounts Payable
MCC records as liabilities all amounts due to others as a direct result of transactions or
events that have occurred. Accounts payable represent amounts due to federal and non-
federal entities for goods and services received by MCC, but not paid at the end of the
accounting period. Accounts payable reported at the end of FY 2008 and FY 2007
were $35.3 million and $39.2 million, respectively. A significant portion of accounts
payable reported ($24.4 million) for FY 2008 was from the USAID reported balances
for Threshold programs.

G. Actuarial FECA Liability
The Federal Employees’ Compensation Act (FECA) provides income and medical cost
protection to covered federal civilian employees injured on the job, employees who
have incurred a work-related occupational disease, and beneficiaries of employees
whose deaths are attributable to a job-related injury or occupational disease.




                                        30
Claims incurred for benefits for Corporation employees under FECA are administered
by the Department of Labor (DOL) and later billed to MCC. MCC’s actuarial liability
for workers’ compensation includes any costs incurred but unbilled as of year-end, as
calculated by DOL, and is not funded by current appropriations.

MCC incurred no FECA liabilities during FY 2008 and FY 2007.

H. Accrued Annual Leave

The value of employees’ unused annual leave at the end of each fiscal quarter is
accrued as a liability. At the end of each fiscal quarter, the balance in the accrued
annual leave account is adjusted to reflect current pay rates and leave balances. Annual
leave is funded from current appropriations. Sick leave and other types of non-vested
leave are expensed when used and, in accordance with federal requirements, no
accruals are recorded for unused leave.

I. Net Position
Net position is composed of unexpended appropriations and cumulative results of
operations. Unexpended appropriations are funds appropriated by Congress to MCC
that are still available for expenditure at the end of the fiscal year. Cumulative results
of operations represent the net differences between financing sources and expenses
since MCC’s inception.

MCC made an adjustment to the FY 2008 beginning balance for cumulative results of
operations to account for FY 2007 prior period adjustments. These adjustments were
identified as expense accruals for payments that were not properly accrued in FY 2007.

J. Financing Sources
Per note 1.C, MCC funds its program and operating expenses through no-year
appropriations. Appropriations are recognized as an accrual-based financing source at
the time they are used to pay program or administrative expenses, except for expenses
to be funded by future appropriations.

K. Retirement Benefits
MCC’s employees participate in either the Civil Service Retirement System (CSRS) or
the Federal Employees Retirement System (FERS). FERS was established by Public
Law 99-335. Pursuant to this law, most U.S. Government employees hired after
December 31, 1983, are covered by FERS and Social Security. Federal employees
hired prior to January 1, 1984, were allowed to elect whether they desired to participate
in FERS (with Social Security coverage) or remain in CSRS. For employees covered
by CSRS, MCC contributes 7 percent of their gross pay toward their retirement
benefits. For those employees covered by FERS, MCC contributes 11 percent of their




                                         31
gross pay toward retirement. Employees are also allowed to participate in the federal
Thrift Savings Plan (TSP). For employees under FERS, MCC contributes an automatic
1 percent of basic pay to TSP and matches employee contributions up to an additional 4
percent of pay, for a maximum Corporation contribution amounting to 5 percent of pay.
Employees under CSRS may participate in the TSP, but will not receive either MCC’s
automatic or matching contributions.

At the end of FY 2008, MCC made retirement contributions of $142,000 to CSRS,
$2.66 million to FERS, and $998,130 to TSP.

L. Use of Estimates
The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities, the disclosure of
contingent assets and liabilities at the date of the financial statements, and the reported
amounts of financing sources and expenses during the reporting period. Actual results
could differ from such estimates.

M. Contingencies
MCC can be a party to various routine administrative proceedings, legal actions, and
claims brought by or against it, including threatened or pending litigation involving
labor relations claims, some of which may ultimately result in settlements or decisions
against MCC. In the opinion of MCC’s management and legal counsel, there are no
proceedings, actions, or claims outstanding or threatened that would materially impact
MCC’s financial statements.

N. Judgment Fund
Certain legal matters to which MCC can be named as a party may be administered and,
in some instances, litigated and paid by other federal agencies. In general, amounts
paid in excess of $2,500 for Federal Tort Claims Act settlements or awards pertaining
to these litigations are funded from a special appropriation administered by the
Department of the Treasury, called the Judgment Fund. Although the ultimate
disposition of any potential Judgment Fund proceedings cannot be determined,
management expects that any liability or expense that might ensue would not be
material to MCC’s financial statements.

O. Custodial Receivables and Liabilities
Under current policy and procedures, MCC funds all compacts with other countries by
advancing funds on a monthly basis to cover projected needs. Such funds provided to
the countries are required to be deposited in interest-bearing accounts, if legally
feasible, until disbursed. The interest earned on these accounts is remitted to MCC and
deposited into an account at the U.S. Treasury. Such interest may not be retained or
used by MCC, but periodically, is returned to the Treasury’s general funds. MCC had




                                         32
outstanding advances related to compact financing (Compact, Due Diligence and
609(g) funding) of approximately $32.6 million and $30.8 million on September 30,
2008 and 2007, respectively. MCC received and deposited $1.61 million and $1.93
million in interest remittances on September 30, 2008 and 2007, respectively.

P. Donated Services
MCC may on occasion utilize donated services from other Federal agencies and private
firms in the course of business operations. MCC did not utilize donated services for
FY 2008. The approximate fair market value of donated services for September 30,
2007 was $123,750.

Q. Transfers with Other Federal Agencies
MCC is a party to allocation transfers with another federal agency as a transferring
entity. Allocation transfers are legal delegations by one department of its authority to
obligate budget authority and outlay funds to another department. A separate fund
account (allocation account) is created in the U.S. Treasury as a subset of the parent
fund account for tracking and reporting purposes. All allocation transfers of balances
are credited to this account, and subsequent obligations and outlays that are incurred by
the child entity are charged to this allocation account, as they execute the delegated
activity on behalf of the parent entity.

Generally, all financial activity related to these allocation transfers (e.g., budget
authority, obligations, outlays) is reported in the financial statements of the parent
entity, from which the underlying legislative authority, appropriations, budget
appointments are derived. MCC allocates funds, as the parent, to the United States
Agency for International Development (USAID). In FY 2008 and 2007, MCC
transferred budgetary authority of $110 million and $201 million, respectively to
USAID for Threshold programs.

R. Liabilities
MCC reclassified FY 2007 balances ($2.046 million) from Intragovernmental
Liabilities to non-Intragovernmental liabilities in the column titled “Other/Accrued
Funded Liabilities” for proper reporting with FY 2008 balances. MCC noted that
expense accruals reported in FY 2007 should not have been displayed as
“Intragovernmental” and should have been denoted as liabilities from the “Public.” In
order to ensure the FY 2007 expense accruals were properly reported in comparison
with FY 2008 expense accruals, MCC reclassified this portion of the FY 2007 balance.

Note 2—Fund Balance with Treasury
The U.S. Treasury accounts for all U.S. Government cash on an overall consolidated
basis. MCC is appropriated “general” funds only and maintains theses balances in the
Fund Balance with Treasury. The general fund line items on the Balance Sheet for
September 30, 2008 and 2007 consisted of the amounts presented in Exhibit 53. The


                                        33
status of the general fund balances is summarized by obligated and unobligated
balances in Exhibit 54.



        Exhibit 53: Fund Balance with Treasury as of September 30


                             September 30, 2008         September 30, 2007
                               (in thousands)             (in thousands)
Fund Balances
General Funds                    $6,546,857                 $5,549,290
Total                            $6,546,857                 $5,549,290




Exhibit 54: Status of Fund Balance with Treasury as of September 30


                             September 30, 2008         September 30, 2007
                               (in thousands)             (in thousands)
Status of Fund Balances with Treasury
Unobligated Balance
      Available                     $782,006                     $1,520,927
      Unavailable                     181,507                       739,242
Obligated Balance                 $5,583,344                     $3,289,121
Total                                 $6,546,857                 $5,549,290


Note 3—Accounts Receivable, Net
Accounts receivable reflects overpayments of payroll, travel and other MCC current
and former employee expenses. MCC does not record an allowance for doubtful
accounts as these expenses are deemed wholly collectible. Total receivables at the end
of FY 2008 and 2007 were approximately $55,000 and $68,000, respectively.

MCC reclassified its FY 2007 balances for Accounts Receivable from
Intragovernmental Assets to non-Intragovernmental Assets for proper reporting with
the FY 2008 balances. MCC, in its previous A-136 financial statement reporting, has
incorrectly classified its Accounts Receivable balances as “Intragovermental.” These
balances were reviewed during FY 2008 and determined to be Accounts Receivable
due from the “Public.”

Note 4—General Property, Plant and Equipment (PP&E), Net
MCC’s PP&E costs are the associated leasehold improvements made to its leased
office space. MCC has made significant leasehold improvements to its office space
and amortizes the improvements based on the in-service (invoice) date of the

                                       34
           improvement. Amortization on that in-service improvement is calculated on a
           quarterly basis. The cost of these improvements at September 30, 2008 and 2007 was
           $10.9 million and $8.7 million, respectively. Accumulated depreciation was $2.8
           million and $1.5 million, respectively. The current book value is valued at $8.1 million
           and $7.1 million for the periods ending September 30, 2008 and 2007, respectively.
           The useful life of the improvements is based on the lease terms; 10 years for the Bowen
           building lease and 8 years for the City Center building lease.

           MCC’s capitalization threshold for all other general property, plant and equipment
           must have an original cost of $50,000 or more and an estimated useful life of 5 or more
           years. MCC’s software capitalization threshold defines a capitalized asset that has an
           original cost of $200,000 or more and an estimated useful life of 5 years or more and
           the information technology infrastructure capitalization threshold defines a capitalized
           asset as having an original cost of $200,000 or more and an estimated useful life of 3
           years or more. These thresholds reduce MCC’s administrative costs associated with
           accounting for PP&E, and result in increased operational efficiency.

           Note 5—Other Assets
           Advances reflect amounts provided to MCA compact countries and other federal
           agencies in accordance with formal compacts or inter-agency agreements. MCC
           reported $42.6 million and $32.2 million in advances as of September 30, 2008 and
           2007, respectively.

           Note 6—Leases
           MCC leases office space in two adjacent locations in Washington, D.C. These leases
           are on 10 year (Bowen) and 8 year (City Center) lease terms that terminate on May 25
           and May 26, 2015, respectively. The Bowen building lease increases approximately 1
           percent each year of the lease term. The City Center building lease increases every
           three years through the lease term. The increases for both buildings are depicted in
           Exhibit 55 below.

                                  Exhibit 55: Operating Leases

                                   Future Lease Payments Due
Fiscal Year                                            Bowen           City Center          Total
FY 2009                                                5,502,517        1,889,524         7,392,041
FY 2010                                                5,557,542        1,889,524         7,447,006
FY 2011                                                5,613,117        1,942,376         7,555,493
FY 2012                                                5,669,249        1,942,376         7,611,625
FY 2013                                                5,725,941        1,942,376         7,668,317
After 5 Years                                        11,624,232         3,990,458       15,614,690
Total Future Lease Payments (in dollars)            $39,692,598      $13,596,634       $53,289,232




                                                  35
               Note 7—Intragovernmental Costs and Exchange Revenue
               The Statement of Net Cost reports the MCC’s gross cost less earned revenues to arrive
               at net cost of operations. Costs have been illustrated by MCC specific programs.
               Exhibit 56 shows the value of exchange transactions between the Corporation and other
               Federal entities, as well as non-Federal entities. Intra-governmental costs relate to
               transactions between the MCC and other Federal entities. Public costs, on the other
               hand, relate to transactions between the MCC and non-Federal entities. MCC does not
               have any exchange revenues.

                      Exhibit 56: Intra-governmental Costs and Exchange Revenue




                                                                                     Administrative
                                                         Due Diligence
                                           Threshold


                                                                                                        FY 2008      FY 2007
                   Compact




                                                                                                         Total        Total
                               609(g)




                                                                           Audit
                                                                                                          (in          (in
                                                                                                      thousands)   thousands)
Intra-
                    -           -        3,006          2,680            2,118     11,285               19,089       14,156
Governmental
Public         226,498       9,769      115,898        14,659             186      74,497              441,507      273,439
Total -
Program        $226,498      $9,769     $118,904       $17,339           $2,304    $85,782             $460,596     $287,595




               Note 8—Adjustments to Beginning Balance of Budgetary Resources
               At the beginning of FY 2008, $12.6 million of amounts appropriated under the Foreign
               Operations, Export Financing and Related Programs Appropriations Act were
               rescinded. The rescission was part of the Across-the-Board rescission enacted for FY
               2008. MCC was also subject to a mid fiscal year 2008 rescission of $58 million.

               MCC also made adjustments to its Unexpended Appropriations beginning balance to
               reflect the ending balance from FY 2007. This adjustment was due to untimely
               reporting of final FY 2007 ending balances from USAID for the Threshold program.
               At the end of FY 2007, USAID made an additional adjustment to its account balances
               that was never reported and incorporated into MCC’s consolidated financial statements.
               This oversight was identified in FY 2008 and recorded as an adjustment to ensure that
               FY 2007 ending balances for Unexpended Appropriations equaled FY 2008 beginning
               balances for Unexpended Appropriations.




                                                               36
         Note 9—Explanation of Differences between the Statement of Budgetary
         Resources (SBR) and the Budget of the U.S. Government
         MCC ensures that the information reported in its books is reflected within the Budget
         of the U.S. Government. Since MCC’s financial statements are published before the
         President’s Budget, this reconciliation is based on the Statement of Budgetary
         Resources (SBR) for FY 2007 and the 2007 actual data reported in the President’s 2009
         budget submission. Fiscal year 2008 actual data will be published in February 2009
         within the 2010 Budget of the United States. Material differences reported in the
         budgetary resources column ($2,679) represent unobligated balances reported on
         MCC’s SBR and SF133, but not in the Budget of the U.S. Government. See Exhibit
         57.

     Exhibit 57: Material Differences Between the SBR and the President’s Budget

                                                                           Distributed
                                    Budgetary           Obligations        Offsetting         Total
                                    Resources             Incurred          Receipts         Outlays
                                   (in millions)        (in millions)     (in millions)   (in millions)
Statement of Budgetary                  4,430                 2,174                              277
Resources
Unobligated Balance Carry              (2,679)
forward from FY 2006
Budget of the U.S.                      1,751                                    (3)             277
Government


         Note 10—Undelivered Orders at the End of the Period
         The reported net position consists of unexpended appropriations and cumulative results
         of operations, which reflects the difference between financing sources and expenses
         since MCC’s inception. Exhibit 58 presents Undelivered Orders as of September 30,
         2008 and 2007.

                                Exhibit 58: Undelivered Orders

                     Undelivered
                       Orders                    2008                     2007
               Administrative                      27,302,437              27,939,653
               Audit                                2,180,340                1,466,325
               609(g)                              25,349,832              25,781,640
               Due Diligence                       49,203,177              33,829,978
               Compact/CIF                   5,242,750,204               2,956,809,299
               Threshold                         238,174,754              234,952,661
               Total                       $5,584,960,744               $3,280,779,556




                                                   37
             Note 11—Reconciliation of Net Cost of Operations to Budget
             Exhibit 59 reconciles the resources available to MCC to finance operations with the net
             cost of operating MCC’s programs. Some operating costs, such as depreciation, do not
             require direct financing sources. This exhibit illustrates the reconciliation of Net Cost
             of Operations to Budget.

                  Exhibit 59: Reconciliation of Net Cost of Operations to Budget

  Resources Used to Finance
          Activities                                            Program Costs
Budgetary Resources Obligated
Gross obligations                       2,769,921,274       Gross Costs                       460,596,248
Recoveries of prior year unpaid              (504,898)
obligations
Other financing resources                    1,650,550
Total resources used to finance         2,771,066,926
activities
Total resources used to finance        (2,306,454,323)      Less: Earned Revenue                         -
items not part of the net cost of
operations
Total components of net cost of              1,147,968
operations that will not require or
generate resources
Other expenses not requiring               (5,164,323)
budgetary resources
Net Cost of Operations                    460,596,248       Net Cost of Operations          460,596,248




                                                     38
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig


                    39
